No:

In the
Supreme Court of the United States

EDWIN JASSIEL PERALTA-CASTRO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Edwin Jassiel Peralta-Castro
Register Number: 97057-379
Big Spring Cl
2001 Rickabaugh Dr
Big Spring, TX 79720

QUESTIONS PRESENTED FOR REVIEW
Did the Fifth Circuit Court of Appeals err in determining there was no
“Substantial Showing of Denial of a Constitutional Right” - Failure to Explain to
Peralta-Castro his sentencing exposure prior to advising him to plead guilty, thus
reaching a level of ineffectiveness.
Did the Fifth Circuit Court of Appeals err in determining there was no “Substantial
Showing of Denial of a Constitutional Right” - The allegations of ineffectiveness
during the pre-trial stage which encouraged the matter to proceed further.

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case is the United States Court of Appeal for the
Fifth Circuit and the United States District Court, Southern District Texas.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

iii

TABLE OF CONTENTS
Cover Page

1

Questions Presented for Review

11

Parties to the Proceedings In The Court Below

in

Table of Contents

IV

Table of Authorities

vi

Opinion Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes and Rules Involved

2

Statement of the Case

4

A. Course of Proceedings in the Lower Courts

4

Statement of the Facts

6

Reasons for granting the writ

9

Did the Fifth Circuit Court of Appeals err in determining there was no
“Substantial Showing of Denial of a Constitutional Right” - Failure to
Explain to Peralta-Castro his sentencing exposure prior to advising him
to plead guilty, thus reaching a level of ineffectiveness..........................

10

Did the Fifth Circuit Court of Appeals err in determining there was
no “Substantial Showing of Denial of a Constitutional Right” - The
allegations of ineffectiveness during the pre-trial stage which
encouraged the matter to proceed further............................................

15

Conclusion

18

IV

Appendix - A United States v. Peralta-Castro,
804 F. App'x 291 (5th Cir. 2020)......................

A-l

United States v. Peralta-Castro,
2019 U.S. Dist. LEXIS 92216 (S.D. Tex. June 3, 2019)

B-l

V

TABLE OF AUTHORITIES
Cases
Cullen v. Pinholster, 563 U.S. 170 (2011)

16

Harrington v. Richter, 562 U.S. 86 (2011)

16

Hill v. Lockhart, 474 U.S. 52 (1985)

15

Hinton v. Alabama, 134 S. Ct. 1081 (2014)

14

Julian v. Bartley, 495 F.3d 487 (7th Cir. 2007)

15

Magan v. Hofbauer, 263 F.3d 542 (6th Cir. 2001)

14

Miller v. Johnson, 200 F.3d 274 (5th Cir. 2000)

16

Missouri v. Frye, 566 U.S. 134 (2012)

16

Smith v. United States, 348 F.3d 545 (6th Cir. 2003)

14

Sorto v. Davis, 672 F. App'x 342 (5th Cir. 2016)

17

Strickland v. Washington, 466 U.S. 668 (1984)

16

United States v. Peralta-Castro, 804 F. App'x 291 (5th Cir. 2020)

2

United States v. Stewart, 207 F.3d 750 (5th Cir. 2000)

16

Wiggins v. Smith, 539 U.S. 510 (2003)

14

VI

Regulations
18 U. S. C. § 1957

6

18 U.S.C. § 1956(a)(2)(A)

5

18 U.S.C. § 1957

5, 12, 13

21 U.S.C. § 846

4

28 U.S.C. § 1254(1)

•2,3

28 U.S.C. § 2253

3,4

28 U.S.C. § 2255

3

Rules
Supreme Court Rule 10

9, 10

Supreme Court Rule 10.1(a)

10

vii

No:

In the
Supreme Court of the United States

EDWIN JASSIEL PERALTA-CASTRO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Edwin Jassiel Peralta-Castro, the Petitioner herein, respectfully prays that a
Writ of Certiorari is issued to review the judgment of the United States Court of
Appeals for the Fifth Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Fifth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished opinion United States v. PeraltaCastro, 804 F. App'x 291 (5th Cir. 2020), entered on May 13, 2020 and is reprinted
as Appendix A to this Petition.
The opinion of the United States District Court, Southern District of Texas,
whose judgment is herein sought to be reviewed, is an unpublished opinion United
States v. Peralta-Castro, 2019 U.S. Dist. LEXIS 92216 (S.D. Tex. June 3, 2019) is
reprinted as Appendix B to this Petition.
STATEMENT OF JURISDICTION
The Fifth Circuit Court of Appeals opinion was entered on May 13, 2020.
The Jurisdiction of this Court is invoked pursuant to Title 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.
Id. Fifth Amendment U.S. Constitution
2

The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
$ $ $ $ $

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing
thereon, determine the issues and make findings of fact and conclusions of
law with respect thereto.
Id. Title 28 U.S.C. § 2255
Title 28 U.S.C. § 2253 provides in pertinent part:
(a) In a habeas corpus proceeding or a proceeding under section 2255 before a
district judge, the final order shall be subject to review, on appeal, by the court of
appeals for the circuit in which the proceeding is held.

3

(b) There shall be no right of appeal from a final order in a proceeding to test
the validity of a warrant to remove to another district or place for commitment or
trial a person charged with a criminal offense against the United States, or to test
the validity of such person’s detention pending removal proceedings.
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if
the applicant has made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by
paragraph (2).
Id. Title 28 U.S.C. § 2253
STATEMENT OF THE CASE
A. Course of Proceedings in the Lower Courts
On September 9, 2015, a two-count Superseding Indictment was filed in the
United States Court for the Southern District of Texas, Houston Division, naming
Edwin Jassiel Peralta-Castro and eleven other co-defendants. Count 1 of the
indictment charged all of the defendants with conspiracy to possess with intent to
distribute 1 kilogram or more of heroin and 50 grams or more of
methamphetamine, from early 2013 through the date of the Superseding
Indictment, in violation of 21 U.S.C. §§ 846, 841(a)(1), 841 (b)(l)(A)(I), and (viii).
4

Count Two of the Superseding Indictment charged Christopher Glen Clark and
Jessica Soto Eriza with the laundering of monetary instruments, which occurred
from mid-2013 to on or about late January 2014, in violation of 18 U.S.C. §
1956(a)(2)(A), and (2). On April 27,2016, a one-count Superseding Information
was filed in the United States District Court for the Southern District of Texas,
Houston Division, naming Peralta-Castro, as the defendant. Count 1 charged the
defendant with engaging in monetary transactions in property derived from
specified unlawful activity, on or about June 20, 2013, in violation of 18 U.S.C. §
1957. On May 12, 2016, Peralta-Castro appeared before United States District
Judge, Hon. Sim Lake, for a re-arraignment. Peralta-Castro entered a plea of guilty
to Count 1 of the Superseding Information, under a Rule 11(c)(1)(A) and (B)
written Plea Agreement. The Plea Agreement was sealed. The Court accepted the
Peralta-Castro’s guilty plea and ordered the preparation of a Presentence
Investigation Report.
The Presentence Investigation Report stated that Peralta-Castro was an average
participant and wholly failed to provide a minor role adjustment. Peralta-Castro
filed objections to the Presentence Investigation Report, mainly to Iflj’s 12 and 19,
because it sought to hold Peralta-Castro accountable for the relevant conduct of the
underlying offense (drug trafficking) after he had entered a plea of guilty to
engaging in monetary transactions in property derived from specified unlawful
5

activity in violation of 18 U. S. C. §1957. The Presentence Investigation Report
provided for an advisory guideline range of imprisonment of 121 - 151 months,
however, under U. S. S. G. § 5Gl.l(a), the guideline range became the statutory
authorized maximum term of 120 months imprisonment. Peralta-Castro’s
objections were overruled and the district court sentenced him to the statutory
authorized maximum term of imprisonment of 120 months.
STATEMENT OF THE FACTS
According to the Presentence Investigation Report, in early 2013, law
enforcement officials in Houston, Texas determined that a drug trafficking
organization based in Michoacan, Mexico, was recruiting individuals to drive
vehicles fitted with hidden compartments filled with narcotics, across the Mexican
border with the Southern District of Texas. Once those vehicles entered the United
States, they were driven from Texas to their ultimate destinations. One of those
destinations was New York, where the drivers would give possession of the vehicle
to a specified individual who would take the vehicle for a day or so, the return the
vehicle to the driver. At the time of the vehicle’s return, it would have United
States currency concealed in its hidden compartment. The vehicle would then be
driven back to Mexico. During 2013, several drugs and/or currency seizures in the
Southern District of Texas was linked to the Mexican drug trafficking
organization. In 2014, Maria Carranza, a co-defendant, was identified as a member
6

of the drug trafficking organization that assisted in the flow of drugs and money. In
March 2016, and an undercover officer had been introduced into the drug
trafficking organization by a confidential source. The undercover officer was in
telephone contact with an individual is known as “Rodolfo” one of the narcotics
suppliers in Mexico. Agents received information from the confidential source
that the drug trafficking organization was operating a stash house at 14907 Leila
Oaks in Houston, Texas. Agents conducted surveillance at the residence and
determined that Peralta-Castro was an occupant of the house. On June 3, 2013,
law_enforcement agents observed a Volvo parked at the house. The Volvo was
registered to A.O. The next day, the same Volvo was stopped in Beaumont, Texas.
The driver of the vehicle was identified as M.S.
A search of the vehicle revealed 16 kilograms of methamphetamine hidden in a
secret compartment of the Volvo. The investigation revealed that A.O. had
multiple international crossings at the U. S. Border in Brownsville, Texas, and had
crossed the border several times with Christopher Clark._When interviewed, M.S.
Advised the law enforcement agents that she gave the Volvo to the Peralta-Castro
on June 3, 2013, who kept the vehicle for several hours. Peralta-Castro returned
the Volvo to M. S. Later that evening and also provided M. S. with money to travel
to Atlanta, Georgia. A review of telephone records confirmed cellular phone

7

contact between M. S. and Peralta-Castro during a particular time. M.S. admitted
that she had been hired by an individual to drive the drugs to Atlanta, Georgia.
On June 7, 2013, Christopher Glen Clark was a passenger in a vehicle driven
by A.O. The vehicle was a black Dodge Journey SUV and had been registered to
Christopher Glen Clark in May 2013. The officers that conducted a traffic stop on
the vehicle recovered 10 kilograms of heroin from a hidden compartment. Law
enforcement agents had previously observed the black Dodge Journey SUV at
14907 Leila Oaks, Houston, Texas. A.O. admitted working for the drug trafficking
organization for approximately three months. A.O. stated she was paid between
$2,000.00 and $3,000.00 per trip and admitted to making multiple trips from
Mexico to various points in the United States. A.O. stated that on several of her
trips, she dropped off the stash vehicle with Peralta-Castro for a short time before
leaving Houston and again upon her return to Houston. Christopher Glen Clark
confirmed that Peralta-Castro assisted with the pickup and delivery of the vehicles
from the drug trafficking organization. Telephone records confirmed multiple
contacts between Christopher Glen Clark, A. O., and Peralta-Castro.
On June 20, 2013, Peralta-Castro purchased a Honda Pilot SUV from Spring
Branch Honda in Houston, Texas for $14,149.68 in cash. On June 21, 2013, the
vehicle was registered to B.H. On July 18,2013, B.H. was arrested at the United

8

States Border Patrol checkpoint in Sarita, Texas. Law enforcement officers
recovered 16 kilograms of heroin in an aftermarket compartment located under the
vehicle. B.H. was interviewed and admitted driving the vehicle to New York,
picking up money, and driving the loaded vehicle to Mexico. B.H. stated that she
traveled to Houston and picked up the Honda Pilot in the direction of PeraltaCastro. Both M.S. and A.O. identified Peralta-Castro as the person in Houston who
delivered load cars to them and provided expense money. Peralta-Castro gave them
$1,000 and $2,000.00 per trip for expenses.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
HAS INTERPRETED A FEDERAL STATUTES IN A WAY THAT
CONFLICTS WITH APPLICABLE DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a) When a United States court of appeals has rendered a
decision in conflict with the decision of another United States
Court of Appeals on the same matter; or has decided a federal
question in a way in conflict with a state court of last resort; or has
so far departed from the accepted and usual course of judicial
9

proceedings, or sanctioned such a departure by a lower court, as to
call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a way
that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)
QUESTIONS PRESENTED
Did the Fifth Circuit Court of Appeals err in determining there was no
“Substantial Showing of Denial of a Constitutional Right” - Failure to
Explain to Peralta-Castro his sentencing exposure prior to advising him to
plead guilty, thus reaching a level of ineffectiveness.
Basic research is the fundamental process of a criminal defense attorney’s
practice. Had counsel done basic research and properly understood the relevant
Sentencing Guidelines as applied to Peralta-Castro’s case, counsel would have
realized his sentencing exposure exceeded the statutory maximum for the offense.
Instead, counsel misunderstood the Guidelines and advised Peralta-Castro that he
faced at most 15 to 21 months in prison, and to therefore plead guilty. PeraltaCastro followed counsel's advice and was sentenced to the statutory maximum.
Had he received correct legal advice from counsel, Peralta-Castro would not have
pleaded guilty but would have gone to trial. In a hand-written note, counsel
advised Peralta-Castro that his sentencing exposure was just 15 to 21 months under

10

the Guidelines. (Cr.Dkt. 577).1 Counsel's advice, however, was premised on his
ignorance of the relevant Guidelines applicable to Peralta-Castro. Counsel believed
that Peralta-Castro’s conduct in the underlying drug conspiracy could not be
considered in determining his Guidelines sentencing range ("GSR") because he
was not convicted of that drug conspiracy. Counsel's belief was because he
misread the Guideline, which clearly showed Peralta-Castro’s aiding and abetting
the drug operation was a valid basis for determining the GSR for his conviction for
laundering the proceeds of that operation. Counsel easily convinced Peralta-Castro
of the 15 to 21 month GSR by pointing to his codefendants who, for the same
conviction, later received low sentences. For example, Jessica Soto Eriza was
sentenced to 60 days in prison plus 3 years of supervised release, and Christopher
Glen Clark received 38 months in prison, plus 3 years of supervised release. Even
Peralta-Castro’s codefendants who were convicted for the drug operation were
mostly sentenced to low sentences: Jose De La Virgen, time served; Armando
Martinez, a year and a day in prison; Miguel Carranza, time served; and five others
ranging from four to thirteen years in prison. Peralta believed counsel when he told
him he would get at most 15 to 21 months in prison. Counsel’s misunderstanding
can be supported by the District Court’s record.

1 “Cr.Dkt.” refers to the criminal docket in USDC Southern District of Texas,
4:14cr35
11

The United States Sentencing Guidelines ("USSG") § 2Sl.l(a) establishes the
base offense level for money laundering based on "(1) the offense level for the
underlying offense from which the laundered funds were derived, if (A) the
defendant committed the underlying offense (or would be accountable for the
underlying offense under subsection (a)(1)(A) of § 1B1.3 (relevant conduct)); and
(B) the offense level for the offense can be determined; or (2) 8 plus the number of
offense levels from the table in § 2B 1.1 ... corresponding to the value of the
laundered funds, otherwise." One point is also added under the Guideline if the
conviction was under 18 U.S.C. § 1957. Counsel ignored the fact that he told
Peralta-Castro to admit to being an integral part of the drug operation and to sign
the plea agreement stating so. The government did not have to provide a "scintilla"
of any evidence that Peralta-Castro aided and abetted the underlying drug
operation to establish the base offense level under § 2Sl.l(a) - he admitted to it in
his plea agreement. The only provision under § 2Sl.l(a) to establish the base
offense level for Peralta-Castro’s conviction was (1)(A) because, while PeraltaCastro may not have technically committed the underlying drug offense, he
pleaded guilty to "aiding and abetting" that drug offense. The factual basis for the
plea agreement intimately details Peralta-Castro’s involvement in the underlying
drug operation, where he provided vehicles with secret compartments to transport
the drugs and proceeds. Still, counsel was adamant that Peralta-Castro would not
12

get more than 15 to 21 months in prison if he signed the plea agreement. After
counsel's objections to the Presentence Report ("PSR") were flatly rejected by the
District Court, Peralta-Castro was sentenced to the statutory maximum under 18
U.S.C. § 1957, because his GSR under § 2S1 - 1(a) - derived from the drug table in
§ 2D1.1 — was well-beyond the 120 month maximum for the offense. In his direct
appeal brief, the basis for counsel's bad advice to Peralta-Castro became evident.
He argued that because Peralta-Castro was not convicted of the underlying drug
offense, the District Court erred in applying § 2SI. 1(a)(1), instead of (a)(2).
Further, counsel argued that the District Court "wholly failed to consider and apply
Application Note 2(C) of USSG § 2S1.1," and therefore incorrectly considered
Peralta-Castro "relevant conduct in the underlying offense." Brief, at 10 (emphasis
added). Counsel's arguments were legally baseless. Finally, counsel's ignorance of
the relevant points of law in Peralta-Castro’s case that the U.S. Court of Appeals
for the Fifth Circuit spent most of its opinion criticizing his errors. The Court
pointed out that counsel's "briefing on critical aspects of his claim of error" was so
bad, he effectively "waived" any arguments on behalf of Peralta-Castro. See
United States v. Peralta-Castro, 2017 U.S. App. LEXIS 21217, *2-3 (5th Cir.
2017). The Court also called counsel's briefing "inadequate" and noted that PeraltaCastro "is not entitled to a liberal construction of his arguments because he is
represented by counsel." Id., at 3. "An attorney's ignorance of a point of law that is
13

fundamental to his case combined with his failure to perform basic research on that
point is a quintessential example of unreasonable performance under Strickland."
Hinton v. Alabama, 134 S. Ct. 1081, 1089 (2014) (citing Strickland v. Washington,
466 U.S. 668 (1984), and collecting cases). The U.S. Supreme Court has also held
that counsel is constitutionally ineffective when his "failure to investigate
thoroughly resulted from inattention, not reasoned strategic judgment." Wiggins v.
Smith, 539 U.S. 510, 526 (2003). As the Sixth Circuit has explained: "In a system
dominated by sentencing guidelines, we do not see how sentence exposure can be
fully explained without completely exploring the cases of penalties under likely
guideline scoring scenarios, given the information available to the defendant and
his lawyer at the time." Smith v. United States, 348 F.3d 545, 553 (6th Cir. 2003).
And that counsel's "complete ignorance of the relevant law under which his client
was charged, and his gross misadvise to his client regarding the client's potential
sentence, certainly fell below an objective standard of reasonableness under
prevailing professional norms." Magan v. Hofbauer, 263 F.3d 542, 550 (6th Cir.
2001).
Second, counsel argued, both in his PSR objections and on appeal, the wrong
legal arguments, again because of his ignorance of the Guidelines. This type of
error is what Cronic pointed to when it held that, in addition to actual lack of
counsel being a constitutional violation, "although counsel is available to assist the
14

accused," counsel's assistance was of no help. The "actual or constructive denial of
the assistance of counsel altogether is legally presumed to result in prejudice."
Cronic, 466 U.S., at 659; Strickland, 466 U.S., at 692.
Peralta-Castro’s assertion in his affidavit that his guilty plea was driven by his
counsel's assurance that he faced no more than 15 to 21 months in prison and that
he would not have pleaded guilty but gone to trial had he known the correct
sentence faced, establishes prejudice in the guilty plea context. See Hill v.
Lockhart, 474 U.S. 52, 59 (1985) {Strickland's prejudice prong "focuses on
whether counsel's constitutionally ineffective performance affected the outcome of
the plea process"). Moreover, Peralta-Castro need not prove counsel's deficient
advice "more likely than not" altered the outcome; instead, "he need only
demonstrate that the chances of prejudice were better than negligible" to meet
Strickland's standard. Julian v. Bartley, 495 F.3d 487, 500 (7th Cir. 2007). "This
[Peralta-Castro] has done." Id.
B. Did the Fifth Circuit Court of Appeals err in determining there was
no “Substantial Showing of Denial of a Constitutional Right” - The
allegations of ineffectiveness during the pre-trial stage which encouraged
the matter to proceed further.
Where a clear and distinct record exists, the court was required to hold an
evidentiary hearing. Here, the allegations of ineffectiveness were substantial. To
prevail on ineffective assistance of counsel claim, Peralta-Castro must show that
(1) counsel's performance fell below an objective standard of reasonableness and
15

(2) there is a reasonable probability that, but for counsel's unprofessional errors,
the result of the proceedings would have been different. Strickland v. Washington,
466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984); see also Missouri v.
Frye, 566 U.S. 134, 147, 132 S. Ct. 1399, 182 L. Ed. 2d 379 (2012). "[A] court
need not determine whether counsel's performance was deficient before examining
the prejudice suffered by the defendant as a result of the alleged deficiencies."
Strickland, 466 U.S. at 697; see also United States v. Stewart, 207 F.3d 750, 751
(5th Cir. 2000). "The likelihood of a different result must be substantial, not just
conceivable," Harrington v. Richter, 562 U.S. 86, 112, 131 S. Ct. 770, 178 L. Ed.
2d 624 (2011), and movant must prove that counsel's errors "so undermined the
proper functioning of the adversarial process that the trial cannot be relied on as
having produced a just result." Cullen v. Pinholster, 563 U.S. 170, 189, 131 S. Ct.
1388, 179 L. Ed. 2d 557 (2011) (quoting Strickland v. Washington, 466 U.S. 668,
686 (1984)). Judicial scrutiny of this type of claim must be highly deferential and
Peralta-Castro must overcome a strong presumption that his counsel's conduct falls
within the wide range of reasonable professional assistance. Strickland, 466 U.S. at
689. Simply making conclusory allegations of deficient performance and prejudice
is not sufficient to meet the Strickland test. Miller v. Johnson, 200 F.3d 274,282
(5th Cir. 2000). Melanson v. United States, 2019 U.S. Dist. LEXIS 61522, at *5-6
(N.D. Tex. Apr. 10, 2019). Here Peralta-Castro § 2255 alleged clear, distinct facts
16

that were supported by the record and files of the case. The pleadings included
affidavits, exhibits, and references to the record to show the Peralta-Castro
received ineffective assistance. As presented by the Court in Sorto v. Davis, 672 F.
App'x 342, 346 (5th Cir. 2016) (reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a different manner
or that the issues presented were 'adequate to deserve encouragement to proceed
further.”’) Here the original § 2255 petition and all the exhibits support and
encourage the matter to proceed further.
Because a reasonable jurist could disagree with the District Court’s conclusion,
without granting a hearing or expanding the record, a writ of certiorari should be
granted on the constitutional issues identified herein.

17

CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and remand order the Court of Appeals for the Fifth Circuit.
Done this

, day of August 2020.
Respectfully submitted,
Edwin Jassiel Peralta-Castro
Register Number: 97057-379
Big Spring Cl
2001 Rickabaugh Dr
Big Spring, TX 79720

18

